No.
In The

Supreme Court of tfje Um'tetr States
In the matter of D.O.;
S.O.&M.B.,
Petitioners,
V.

The District of Columbia
Respondent.

On Petition for a Writ of Certiorari
to the District of Columbia Court of Appeals

CERTIFICATE OF SERVICE
.1, Stephen P. Ollar, declare under penalty of perj ury that the foregoing is true and correct:
(1) I hereby certify that, on July 8, 2020,1 caused an original of the Petition for a Writ of
Certiorari, Motion for Leave to File One Volume of the Appendix to Writ of Certiorari Under Seal,
and two volumes of the Appendix to be filed with the United States Supreme Court by depositing
them with the United States Postal Service properly addressed and postage prepaid to the Clerk,
United States Supreme Court, One First Street, N.E., Washington, D.C., 20543.
(2) I further certify that all parties required to be served with copies of these documents.
have been served. Specifically, I served a copy of the Petition for a Writ of Certiorari, Motion for
Leave to File One Volume of the Appendix to Writ of Certiorari Under Seal, and two volumes of
the Appendix upon counsel for the responded, the District of Columbia, on July 8, 2020, by
1

depositing the copies with the United States Postal Service, properly addressed and postage
prepaid to:
KARL A. RACINE
Attorney General for the District of Columbia
LOREN L. ALIKHAN
Solicitor General
DAVID STARK
Assistant Attorney General
Office of the Solicitor General
Office of the Attorney General
441 4th Street, NW. Suite 630 South
Washington, D.C. 20001
A courtesy copy was also mailed to the guardian ad litem in the proceedings below:
LAUREN SCHWARTZ
P.O.Box 15380
Washington, D.C. 20003
Executed on July 8, 2020.

Ste^enROllar
8401 Farrell Drive
Chevy Chase, MD 20815
(907) 382-7675
stephenpollar@gmail.com

Subscribed and sworn to before me
This 8th day of July, 2020.

f'

-

'•
•

......

•.

7

0/v 05
........... '

mill.'*1'''

v

w.

/ o- i

2

